Department of Health and Human Services
                    OFFICE OF 

               INSPECTOR GENERAL 





  INTERCARE COMMUNITY 

HEALTH NETWORK CLAIMED 

UNALLOWABLE COSTS UNDER 

  RECOVERY ACT GRANTS

  Inquiries about this report may be addressed to the Office of Public Affairs at
                           Public.Affairs@oig.hhs.gov. 
                                          




                                            Sheri L. Fulcher

                                       Regional Inspector General 


                                               March 2013 

                                              A-05-11-00103 

                    Office of Inspector General
                                     https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
efficiency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative efforts of OI often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG,
rendering advice and opinions on HHS programs and operations and providing all legal support
for OIG’s internal operations. OCIG represents OIG in all civil and administrative fraud and
abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
guidance, publishes fraud alerts, and provides other guidance to the health care industry
concerning the anti-kickback statute and other OIG enforcement authorities.
                         Notices 


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                 EXECUTIVE SUMMARY 


BACKGROUND

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation’s uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP), Facilities
Investment Program (FIP), and Increased Demand for Services (IDS) grants.

InterCare Community Health Network (InterCare) is a community-based nonprofit organization,
founded in 1972 to provide basic health care services in underserved communities. Its mission is
to improve individual health by providing high quality, comprehensive community-based
primary health care services.

HRSA awarded InterCare approximately $11 million in CIP, FIP, and IDS grant funds, with
grant performance periods starting as early as March 27, 2009, and ending as late as December 8,
2011. InterCare claimed approximately $11 million under the grants as of December 2011.

Title 45, part 74, of the Code of Federal Regulations establishes uniform administrative
requirements governing HHS awards to nonprofit organizations, institutions of higher education,
hospitals and commercial entities. As a nonprofit organization in receipt of Federal funds,
InterCare must comply with Federal cost principles in 2 CFR pt. 230, Cost Principles for Non-
Profit Organizations (formerly Office of Management and Budget Circular A-122), incorporated
by reference at 45 CFR § 74.27(a). These cost principles require that grant expenditures be
allowable. The HHS awarding agency may include additional requirements that are considered
necessary to attain the award’s objectives.

OBJECTIVE

Our objective was to determine whether costs claimed by InterCare were allowable under the
terms of the grants and Federal regulations.
                                               i
SUMMARY OF FINDINGS

Of the $4,968,154 in costs covered by our review, InterCare claimed $4,154,902 that was
allowable under the terms of the grant and applicable Federal regulations. However, InterCare
claimed Federal grant expenditures totaling $58,356 for artwork ($35,650) and electronic health
record (EHR) system implementation and training costs ($22,706) that were unallowable under
the FIP grant. We could not determine allowability of the remaining costs, totaling $754,896,
consisting of certain salary and wage costs that InterCare charged against its IDS grant.

InterCare did not ensure that its payroll distribution and financial reporting procedures complied
with Federal requirements. Specifically, we determined that:

   	 salaries and wages were not adequately supported by personnel activity reports, and

   	 expenditures were allocated to unallowable activities.

RECOMMENDATIONS

We recommend that HRSA:

   	 either require InterCare to refund $754,896 to the Federal Government or work with
      InterCare to determine whether any of these costs were allowable,

   	 require InterCare to refund artwork costs of $35,650,

   	 require InterCare to refund improper EHR system implementation and training costs of
      $22,706,

   	 work with InterCare to resolve the selection of a sole source contractor selection, and

   	 require InterCare to maintain personnel activity reports in accordance with Federal
      regulations.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, InterCare disagreed with the findings that it claimed or
possibly claimed unallowable costs toward the grants. InterCare did not concur with the first
recommendation to refund $754,896 to the Federal Government, claiming that the personnel
costs in question were allowable and adequately documented. InterCare stated that each
employee recorded their time, after-the-fact, for every two-week pay period and that these staff
only performed one function as reflected on the time card. We found that InterCare did not fully
maintain personnel activity reports to support salary and wage costs that it charged to the IDS
grant. Although its system reflected an after-the-fact determination of activity, was

                                                ii
electronically signed by the employee, and prepared on at least a monthly basis, the system did
not accurately record the total activity for which the employee was compensated and did not
identify and segregate non-Federal activity. InterCare did not fully utilize its system for after-
the-fact determination of activity for this project. We encourage InterCare to work with HRSA
to determine the allowability of these costs and ensure revised policies comply with Federal
regulations.

InterCare’s comments are included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                                 iii
                                                       TABLE OF CONTENTS 



INTRODUCTION.................................. .. ...................... .. ...................... .. ...................... .. ....... 1 


           BACKGROUND .................................................................................... ... ................... 1 

               The Health Center Program ........................................................ ... ................... 1 

               American Recovery and Reinvestment Act Grants .......................................... l 

               InterCare Community Health Network ............................ .. ...................... .. ....... 1 

               Federal Requirements for Grantees .................................................................. 2 


           OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................ 2 

                Objective ........................................................................................................... 2 

                Scope ........................ ........ .. .............. ........ .. .............. ........ .. .............. ........ .. ....... 2 

                Methodology .....................................................................................................2 


FINDINGS AND RECOMMENDATIONS ........................................................................ .3 


          UNALLOWABLE AND POTENTIALLY UNALLOW ABLE 

          EXPENDITURES CLAIMED FOR FEDERAL REIMBURSEMENT.. .................... .3 

               Federal Requirements ...................................................................................... .3 

               Expenditures for the Increased Demand for Services Grant ............................ .4 

               Expenditures for the Facility Investment Program Grant.. .............. ........ ......... 5 

               Expenditures for the Capital Improvement Grant ............................................. 5 


           RECOMMENDATIONS .............................................................................................. 5 


           GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL 

           RESPONSE ...................................................................................................................6 


           HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS ......7 


APPENDIXES:

           A: GRANTEE COMMENTS

           B: HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS




                                                                            IV
                                             INTRODUCTION 


BACKGROUND

The Health Center Program

The Health Centers Consolidation Act of 1996 (P.L. No. 104-299) consolidated the Health
Center Program under section 330 of the Public Health Service Act (42 U.S.C. § 254b). The
Health Center Program provides comprehensive primary health care services to medically
underserved populations through planning and operating grants to health centers. Within the
U.S. Department of Health and Human Services (HHS), the Health Resources and Services
Administration (HRSA) administers the program.

The Health Center Program provides grants to nonprofit private or public entities that serve
designated medically underserved populations and areas, as well as vulnerable populations of
migrant and seasonal farm workers, the homeless, and residents of public housing.

American Recovery and Reinvestment Act Grants

Under the American Recovery and Reinvestment Act of2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, HRSA received $2.5 billion, $2 billion of which was to expand the
Health Center Program by serving more patients, stimulating new jobs, and meeting the expected
increase in demand for primary health care services among the Nation's uninsured and
underserved populations. HRSA awarded a number of grants using Recovery Act funding in
support of the Health Center Program, including Capital Improvement Program (CIP), Facilities
Investment Program (FIP), and Increased Demand for Services (IDS) grants.

InterCare Community Health Network

InterCare Community Health Network (InterCare) is a community-based nonprofit organization,
founded in 1972 to provide basic health care services in underserved communities. Its mission is
to improve individual health by providing high quality, comprehensive community-based
primary health care services.

HRSA awarded InterCare $10,992,676 in CIP, FIP, and IDS grant funds, with grant performance
periods starting as early as March 27, 2009, and ending as late as December 8,2011. InterCare
claimed $10,992,676 under the grants as of December 2011 1




1 Specifically, InterCare claimed $1,737,780 under the CIP grant, $8,500,000 under the FIP grant, and $754,896
under the IDS grant during this period.
                                                        1
Federal Requirements for Grantees

Title 45, part 74, of the Code of Federal Regulations establishes unifonn administrative
requirements governing HHS awards to nonprofit organizations, institutions of higher education,
hospitals and commercial entities. As a nonprofit organization in receipt of Federal funds,
InterCare must comply with Federal cost principles in 2 CFR pt. 230, Cost Principles for Non­
Profit Organizations (Office of Management and Budget Circular A-122), incorporated by
reference at 45 CFR § 74.27(a). These cost principles require that grant expenditures be
allowable. The HHS awarding agency may include additional requirements that are considered
necessary to attain the award's objectives.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to detennine whether costs claimed by InterCare were allowable under the
tenns of the grants and Federal regulations.

Scope

                                2
We reviewed $4,968,154 in selected costs that InterCare claimed for these grants during grant
performance periods starting as early as March 27, 2009, and ending as late as December 8,
2011. We limited our review of internal controls to those that pertained directly to our objective.

We perfonned fieldwork at InterCare's administrative offices in Bangor, Michigan, in July 2011.

Methodology

To accomplish our objective, we:

       • 	 reviewed relevant Federal laws, regulations, Notices of Awards and guidance;

       • 	 identified expended funds in InterCare's accounting records as of June 30, 2011;

       • 	 selected a judgmental sample of claimed costs based on transaction amount, description,
           and timing of costs;

       • 	 reconciled grant expenditures recorded in the accounting records to quarterly Recovery
           Act Section 1512 reports;3



2   We reviewed $1,269,619 under the elP grant; $3,501,488 under the FIP grant; and $197,047 under the IDS grant.

3   The purpose of the quarterly Recovery Act Section 1512 report is for recipients to report total Recovery Act funds
invoiced and received.
                                                            2
   	 compared budgeted and actual expenditures to determine whether InterCare should have
      requested prior approval to rebudget costs;

   	 reconciled grant draw downs to grant expenditures; and

   	 reviewed selected costs claimed under the grant for allowability.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                          FINDINGS AND RECOMMENDATIONS

Of the $4,968,154 in costs covered by our review, InterCare claimed $4,154,902 that was
allowable under the terms of the grant and applicable Federal regulations. However, InterCare
claimed Federal grant expenditures totaling $58,356 for artwork ($35,650) and electronic health
record (EHR) system implementation and training costs ($22,706) that were unallowable under
the FIP grant. We could not determine allowability of the remaining costs, totaling $754,896,
consisting of certain salary and wage costs that InterCare charged against its IDS grant.

InterCare did not ensure that its payroll distribution and financial reporting procedures complied
with Federal requirements. Specifically, we determined that:

   	 salaries and wages were not adequately supported by personnel activity reports, and

   	 expenditures were allocated to unallowable activities.

UNALLOWABLE AND POTENTIALLY UNALLOWABLE EXPENDITURES
CLAIMED FOR FEDERAL REIMBURSEMENT

Federal Requirements

Pursuant to 2 CFR pt. 230, Appendix A, § A.2, costs must be adequately documented to be
allowable under an award. Pursuant to 2 CFR pt. 230, Appendix B, § 8.m(1), the distribution of
salaries and wages must be supported by personnel activity reports, unless the cognizant agency
(the Federal agency responsible for negotiating and approving indirect cost rates) has approved a
substitute system in writing. The activity reports maintained by nonprofit organizations must
meet the following standards:

   	 reflect an after-the-fact determination of the actual activity of each employee,

   	 account for the total activity for which each employee is compensated,

                                                3

   	 be signed by the employee or by a responsible supervisory official having firsthand
      knowledge of the activities performed, and

   	 be prepared at least monthly and coincide with one or more pay periods.

Pursuant to 45 CFR § 74.21(b), grantees are required to maintain financial management systems
that provide for, among other things:

       	 Accurate, current, and complete disclosure of the financial results of each
          HHS-sponsored project or program in accordance with the reporting
          requirements set forth in 45 CFR §74.52.

       	 Records that identify adequately the source and application of funds for HHS-
          sponsored activities.

       	 Comparison of outlays with budgeted amounts for each award.

       	 Written procedures for determining the reasonableness, allocability, and
          allowability of costs in accordance with the provisions of the applicable
          Federal cost principles and the terms and conditions of the award.

Pursuant to 2 CFR pt. 230, Appendix A, § A.2.a, to be allowable under an award, grantee costs
must be reasonable for the performance of the award and be allocable thereto under these
principles.

Pursuant to 2 CFR § 215.46, procurement records and files for purchases in excess of the small
purchase threshold must include the following at a minimum: (a) basis for contractor selection;
(b) justification for lack of competition when competitive bids or offers are not obtained; and (c)
basis for award cost or price.

Pursuant to 2 CFR § 215.43, awards must be made to the bidder or offeror whose bid or offer is
responsive to the solicitation and is most advantageous to the recipient, price, quality, and other
factors considered.

Expenditures for the Increased Demand for Services Grant

Salary and Wage Costs

InterCare did not maintain personnel activity reports to support salary and wage costs that it
charged to the IDS grant. Therefore, we could not determine whether $754,896 in salaries and
wages that InterCare charged to the IDS grant were allowable.



                                                 4

InterCare did not accurately record the total activity for which each employee is compensated
and did not identify and segregate non-Federal activity.

Expenditures for the Facility Investment Program Grant

Grant Requirements

HRSA’s FIP Application Guidance, issued June 19, 2009, and updated July 29, 2009, states that
artwork is unallowable.

The Guidance also states that only health centers with currently operational certified electronic
health record (EHR) systems may use FIP funds to purchase site licenses for the site proposed in
the FIP project. HRSA’s FIP Frequently Asked Questions updated August 3, 2009, states that
funds cannot be expended on any approved CIP project activities and awards from FIP cannot
replace funds that have been awarded for a CIP project. New EHR systems are not an allowable
FIP cost; however site licenses and associated hardware for an existing certified EHR system are
an allowable cost. All allowable, associated EHR purchases must be maintained at the project
site.

Unallowable Grant Expenditures

InterCare claimed $35,650 for 29 pieces of artwork charged to the FIP grant. Artwork costs
were not allowable under the FIP grant.

InterCare claimed costs of $22,706 in EHR system implementation charges to the FIP grant. The
EHR charges were for implementation and training hours for the new EHR system just
purchased with CIP Funds. Implementation and training costs for a new EHR system were not
allowed under the FIP grant.

Expenditures for the Capital Improvement Grant

Competitive Bidding

InterCare selected Rue Construction as the sole source general contractor for a facilities
renovation project. InterCare made an effort to obtain approval from HRSA to make this
selection. However, a competitive bidding process was not completed nor was written approval
from HRSA obtained, as required by the CIP grant.

RECOMMENDATIONS

We recommend that HRSA:

   	 either require InterCare to refund $754,896 to the Federal Government or work with
      InterCare to determine whether any of these costs were allowable,

                                                5

   	 require InterCare to refund artwork costs of $35,650,

   	 require InterCare to refund improper EHR system implementation and training costs of
      $22,706,

   	 work with InterCare to resolve the selection of a sole source contractor selection, and

   	 require InterCare to maintain personnel activity reports in accordance with Federal
      regulations.

GRANTEE COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, InterCare disagreed with the findings that it claimed or
possibly claimed unallowable costs toward the grants. InterCare did not concur with the first
recommendation to refund $754,896 to the Federal Government, claiming that the personnel
costs in question were allowable and adequately documented. InterCare stated that each
employee recorded their time, after-the-fact, for every two-week pay period and that these staff
only performed one function as reflected on the time card. We found that InterCare did not fully
maintain personnel activity reports to support salary and wage costs that it charged to the IDS
grant. Although its system reflected an after-the-fact determination of activity, was
electronically signed by the employee, and prepared on at least a monthly basis, the system did
not accurately record the total activity for which the employee was compensated and did not
identify and segregate non-Federal activity. InterCare did not fully utilize its system for after-
the-fact determination of activity for this project. We encourage InterCare to work with HRSA
to determine the allowability of these costs and ensure revised policies comply with Federal
regulations.

InterCare did not concur with the second recommendation to refund $35,650. However,
InterCare acknowledged that the amounts paid for framing and artwork were not allowable under
the FIP grant and stated appropriate adjustments had been made to its records. We encourage
InterCare to submit supporting documentation to show these adjustments.

InterCare did not concur with the third recommendation to refund improper EHR system
implementation and training costs of $22,706. However, InterCare acknowledged that the EHR
system implementation and training costs were not allowable under the FIP grant, and stated
appropriate adjustments had been made to its records. We encourage InterCare to submit
supporting documentation to show these adjustments.

InterCare concurred with the fourth recommendation for HRSA to work with InterCare to
resolve the selection of a sole source contractor selection. InterCare contends, however, that its
contractor selection was appropriate, given the timeframe for the project, the longstanding
relationship with that contractor, and the fact that the cost of renovation services was competitive
and consistent with Federal regulations.


                                                 6

InterCare did not concur with the fifth recommendation because it believes that its
documentation of personnel costs complied with OMB Circular A-122. However, InterCare
does agree that its time and effort policies could be revised and updated. We encourage
InterCare to work with HRSA to ensure revised policies comply with Federal regulations.

InterCare’s comments are included in their entirety as Appendix A.

HEALTH RESOURCES AND SERVICES ADMINISTRATION COMMENTS

In written comments on our draft report, HRSA concurred with our recommendations. HRSA’s
comments are included in their entirety as Appendix B.




                                               7

APPENDIXES

                                                                                                   Page lofS


                  APPENDIX A: GRANTEE COMMENTS 





Nov..::mbcr 16. 2012


i\oIs. Sheri Fulcher
Regional Inspector General for Audit Services
DHHS/Officc of Inspector General
Omce of Audit Services, Region V
233 North ~,..Iichigrul, Suite 1360
Chicago. lL 60601

         Rc:       Report Number: A-05-11-00i03

~ar r...!~.   Fulcher:

      I am in r.:ccipl of your dran report entitl.:d '-'nh:rC'are Community Health
Network Claimed Unallowable Costs Under Recowry Act Grants:'

        On behalf ofthe Board of Directors of InterCare Community Health Netwo rk
(1111crCare), I want to thank you for the opportunity to respond lind provide comments 011
the re(:ommendations included in the dran report.

        InterCare is very appreciative for access to funds through the Recovery Act grants
and the resulting benclits for the patients we serve in six counties in southwl!st ;\'iichi gan.
WI! leel wry strongly that Intl!rCare met the obligations set forth in the app licable llotices
of grant award~. achiev~d the objectives of the granL<;, and appropriald y utiliz~d the
federal dollars that were entmsted to us. We disagree with the findings that InterCare
claimed or possibly claimed unallowable costs toward the grants.

         Please see the attached detailed response to each recommendation.

        Please let me know if yo u ha ve further questions or need additional infommtiotl.
I can be reached at (269) 427·7937 or Vcl ma@ interearc.org.

Sincerely,

Velma Hcndcn;hott

Chief Exccutive Omcer
                                                                                    Page 20f5




lnterCare Community Health Network
Response to Draft Report from the Office of Inspector General
Report#: A-05- II -00103

Recommend at ion 1 to URSA: "Either require lntcrCare to refund $754,896 to the
Federal Government or work with InterCare to detennine whether any of these costs were
allowable."

        lnlerCare does nOI agree with this recommendation, as the personnel costs in
question were allowable and adequately documented. Accordingly.lntcrCare asks that
this recommendation be removed.

A.     Background

        In response to likely increases in the uninsured and undcrinsured populations
se rved by Section 330 grantees, the Health Resources and Services Administration
("HRSA") made supplemental grants 10 Section 330 Health Cenlers unde r the Increased
Demand for Services ("IDS") program, starting in March of 2009. Heahh Centers could
submit an application to use IDS funding for any of the following purposes: adding new
providers, expanding hours of operation, andlor expanding existing health center
services.

        In ou r March 16,2009 app lication for IDS funds, IlIlerCarc:: proposed to use IDS
funds for severaJ purposes. First, we proposed new personnel for our largest site, in
Benton Harbor, which is the most economically deprived community in ou r service area.
We proposed one new full-time family practice physician to meet growing demand for
primary care services, and a new clinical support staff member focusing on prenatal
services to ensure that lnterCare's pregnant patients were timely enrolled. The Benton
Harbor site also houses our largest prenatal program, and the enrollment of pregnant
patients at the site was becoming backlogged due to insufficient resou rces.

       Second, we proposed to recruit a new part-time midlevel provider to address
seasonal surges in migrant demand for services. lnterCare proposed to use the new
seasonal midlevel provider to add two new shifts per week on ou r mobile medical unit
during the migrant season and an additional evening and weekend shift at our largest
fixed migrant site, in Eau Claire.

        We also ex plained in our application that we had recently been forced to layoff
one dental assistant (whose services were needed) due to budget constraints, and six more
su pport positions had been tentatively slated for layoff. We proposed to use the IDS
funding to retain these needed support personnel.

       We estimated that with the above activities, we would create or retain 8.5 full­
time equivalent ("FfE") positions and woul d serve 4 ,200 unduplicated new patients
(4,000 uninsured patients) over the grant period.

       lnterCare received an IDS grant in the amount of our full IDS allotment,
$753,896.00, for a two-year project period (March 27, 2009 through March 26, 2011).
                                                                                       Page 30fS




IntelCare Conununity Health Network
Response 10 Draft Report fro m !he Office of Inspector General
Report #: A-05-ll-OOI03

We acted consistently with our IDS grant application and used the IDS funds to
successfully e"pand services in the following ways:

     • 	 In the Benton Harbor sile, InterCare recruited hi red a new family practice
         physician and a new support worker for the prenatal program, as proposed in our
         application. As a result, we served 5,049 new primary care patients.

     • 	 lnleiCare also aclUeved our goal of adding clinicians and extending hours in our
         mobile medical unit and our site (Bau C laire) that primarily serve migrant
         patients. We hlrcd a seasonal physician's assistant to serve these siles, as stated in
         OUf application. We were able to serv e 8,287 new patients in the Eau Claire site
         and the mobile medical unit over the grant period.

     • 	 lmerCare's operations were dramatically and unexpectedly affected in 2009 by
         cuts in the Michigan State Medicaid program, particularly the elimination of the
         non~ mergency dental benefit for adults. As a result, ImerCare experienced a
         surge in uninsured dental patients. We accordingly reponed to HRSA that we
         intended 10 adjusl our proposed usc of funds 10 retain new denlists and dental
         asSiStants. The IDS funding supponed the hiring or retention of 2.1 fTE dental
         assistants and .3 fTE dentist.

        In total. the IDS funding supponed the creation or retention of approximately the
same number of FI'Es (8.5) we projecled in our application. The number of FI'Es whose
salary and fringe be nefits costs were supponed by the granl funds varied between 7.4 and
10.9 from quarter to quarter during the project period.

        The poSitions that we created or saved have Significantl y improved our patients'
access 10 care and lnterCare's stability. As a resuh of lOS funding, InterCare was able to
serve 8,669 new medical patients and 4,667 new dental patients during the grant period­
exceeding the goals set fonh in the application. Of the new patients served, 7,479 were
panicularly vulnerable because they were uninsured.

       The service expansions thallntcrCare implemented with lOS funding resulted in
44,430 additional patient visits during the two-year grant period. Consistent with the
goals of the Health Center program, the IDS funding made a significant and positive
impact on the health of the res idents of southwest Michigan.

B.      Documentation of Personnel Cost under OMB Circular A- 122

       The draft audit fmding stated: "IntcrCare did not maintain personnel activity
repons to suppon salary and wage costs thaI it charged to the IDS grant. Therefore, we
could not detennine whethe r $754.896 in salaries and wages that lnterCare charged to the
IDS grant were allowable."




                                                                                              2
                                                                                       Page40fS




InterCare Community Health Network
Response to Draft Report from the Office of Inspector General
Repon#: A-05-ll-OOID3

       While we agree that our time and effort reporting policy could be revised and
updated, we do nOI agree that the salaries and wages charged to the IDS granl were
unsupported under the standards found in OMB Circular A·122. Each employee (I)
recorded their time after the fact every two-wcck pay period (if not more frequently)
through lnterCare's time card system; and (2) performed only one function (i.e., medical,
dental, financial services) as reflected on the time carel.

       Circular A-122 requires that the distribution of salaries and wages to awards be
supported by personnel activity repons for al l staff members whose compensation is
charged directly to awards. The personnel activity repons must satisfy the following
standards:

    I. 	 reflect an after-the-fact determination of the actual activi ty of each employee;
    2. 	 account for the total activi ty for which employees arc compensated;
    3. 	 be signed by the employee or by a supervisory official with first-hand knowledge
         of the employee's activities; and
   4. 	 be prepared at least monthly and coincide with pay periods.
2 C.F.R. Part 230, App. B, para. 8.m.2(a)-(d).
         InterCarc uses the Attendanee Enterprise timekeeping and payroll system. Per
InterCare policies, employees record their time after-the-fact on an e lectronic time card
within the Attendance Enterprise system. All InterCarc employees are required to enter
their time on the time card at least on a bi-weekly basis for lime worked during the
previous two-week period. By submitting the electronic lime card, the employee certifies
that he or she has performed work (or taken leave) during the time range identified on the
time card. The captured/reponed time for each employee must be reviewed and
authorized by that employee's supervisor prior to submission to the Attendance
Enterprise system.

        The time cards reflect a detennination of the employee's actual activity. Each
time card lists the program (e.g., dental, medical, financial services) in which the
employee works and the location where the work took place for the two-week period
covered. By signing the time card, the employee confinns that he or she has carried out
the duties described in his or her position description.

       We believe that InterCare's timecard system meets the requirements of OMB
Circular A- 122, for the following reasons:

    I. 	 The time card is completed after-the-fact by the employee every two weeks, thus
         meeting the requirement for contemporaneous documentation of time;

   2. 	 The lime card accounts for all of the activity of each IDS employee;



                                                                                             3
                                                                                     Page 50f5




lnterCare Community Health Network
Response to Draft Report from the Office of Inspector General
Rcport#: A..()S· lI-OOi03

    3. 	 The time card is completed and certified by the employee via an electronic time
         card system and authorized by the employee's supervisor. meeting the signature
         requirement;

   4. 	 The time card is completed bi-weekly, COinciding with payroll, thus mccting the
        requirement that the time cards be completed at least monthly.

         In short, we believe thai IntcrCare adequately documented the time of employees
whose salaries were charged to the IDS grant as required by OMB Circular A-122 and we
ask th at 01G's preliminary finding on this topic be removed.

Recommenda tion 2 to HRSA: "Require InlelCare to refund artwork costs of $35,650."

        In ou r correspondence in June of this year with Ms. Sobota about DIG's tentative
audit findings, we acknowledged that the amounts paid 10 Gemini Moulding for framing
and artwork were not allowable under the Facility Investment Program ("FIP") grant.
We have made appropriate adjustments to our records to reflect th is fact.

Rt:t.:omlltelldac.ioIl3 to HRSA; "Rcquir~ 11l1~rCare lu   r~fund   improper EHR system
implementation and training costs of $22,706."

       S imilarly, we acknowledged in our correspondence with Ms. Sobota in June thaI
the EHR system implementation and training costs were not allowable under the FIP
grant. We have made appropriate adjustments to our records to reflect th is fact.

R ecommend a tion 4 to HRSA : " Work with interCare 10 resolve the selection of a sole
source contractor selection."

         We believe thai contracting with Rue Construction was appropriate, given our
tight timeframe for the project, our longstanding relationship with that contractor, and the
fact that the rate per square foot for the renovation services was competiti ve and believe
our act ions were consistent with the requirements of 45 C.F.R . §74.40 through §74.48.
We look forward to working with HRSA to resolve any questions that it may have about
this procurement.

R ecommendation 5 to HRSA; " Require lnterCare to mai ntain personnel activity
reports in accordance with Federal regulations."

        As detailed above in our response concerning Recommendation I , we believe that
InterCare's documentation of personnel costs complied with Circular A -122. As noted
above, we do agree that our time and effort policies could be revised and updated and
look forward to worki ng with HRSA to ensure that our revised policies comply with al l
federal rules.




                                                                                           4
                                                                                               Page 1 0f3


APPENDIX B: HEALTH RESOURCES AND SERVICES ADMINISTRATION 

                       COMMENTS 



                                                                                Health Resources and Se rvices
          DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Admin istration


                                                                                Rockville MD 20857


                                                JAN 11 2m3




          TO: 	         Inspector General

          FROM: 	       Administrator

          SUBJECT: 	 OIG Draft Report: "InterCare Corrnnnnity Health Network Claimed 

                     Unallowable Costs Under Recovery Act Grants" (A-OS-II -00 I 03) 


          Attached is the Health Resources and Services Administration's (HRSA) response to the
          OIG's draft report, "InterCare Conununity Health Nenvork Claimed Unallowable Costs
          Under Recovery Act Grants" (A-05-11-00103). If you have any questions, please
          contact Sandy Seaton in HRSA's Office of Federal Assistance Management at
          (301) 443-2432.


                                                     MaryK. Wakefield, Ph.D., R.N.

          Attachment
                                                                                         Page 2 of3




 Health Resources and Senrices Administration's Comments on the OIG Draft Report ­
"[ntcreare Community Health Nct\\'ork Claimed Unallowable Costs Under Recovery Act
                               Grants" (A-OS- II -OOI03)

The Health Resources and Services Administration (HRSA) appreciates the opportunity to
respond to the above draft report. HRSA ' s responses to the Office of In speclOT General (OIG)
draft recommendations are as follows:

ole Recommendation to HRSA: 


We recommend that HRSA either require InterCare to refund $754,896 to the Federal 

Government or work with IntcrCare to determine whether any of these costs were allowable. 


HRSA Response: 


HRSA concurs with the 010 recommendation and will work with lntcreare to determine 

whether any of these costs charged against the HRSA grants were allowable. 


OIG Recommendation to HRSA : 


We recommend that I-IRSA require InterCare to refimd artwork costs of$35,650. 


HRSA Response: 


HRSA concurs with the OIG recommendation and will work with InterCare to determine the 

amount of unallowable costs and require that such amount be refunded to the federal
government.

OIG Recommendalion 10 HRSA: 


We recommend that HRSA require InterCare to refund improper EHR system implementation 

and training costs of $22,706. 


HRSA Response: 


HRSA concurs with the 010 recommendation and will work with InterCare to determine the 

amount of unallowable costs and require that such amount be refunded to the federal 

government. 

                                                                                     Page 3 of3




OIG Recommendation to HRSA:

We recommend that HRSA work with IntereaTe to resolve the selection of a sole source 

contractor selection. 


HRSA Response: 


HRSA concurs with the OIG recommendation and will work with IntereaTe to resolve the 

selection of a sole source contractor.

OIG Recommendation to HRSA:

We recommend that HRSA require InterCare to maintain persOimei activity reports in
accordance with Federal regulations . 


HRSA Response: 


HRSA concurs with the OIG recommendation and will ensure that InterCare maintains personnel 

activity reports in accordance with federal regulations.
